/

No.

IN THE
SUPREME COURT OF THE UNITED STATES
WADE ANTHONY ROBERTSON,
Petitioner,
v.
RICHARD HONN, et. al,
Respondents.
Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Wade Robertson, hereby
certify that the petition for a writ of certiorari contains 8,914 words, excluding the
parts of the petition that are exempted by Supreme Court Rule 33.1(d).
I declare (or certify, verify, or state) under penalty of perjury under the laws
of the United States of America that the foregoing is true and correct.
Executed this day:
Dated: July 2, 2020

By:
Wane Robertson

